 AAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Coordination of Biological Select Agent
Activities at Department of Energy Facilities




DOE/IG-0695                                          JULY 2005
COORDINATION OF BIOLOGICAL SELECT AGENT
ACTIVITIES AT DEPARTMENT OF ENERGY FACILITIES




TABLE OF
CONTENTS


               OVERVIEW

               Introduction and Objective                     1

               Observations and Conclusions                   2


               DETAILS OF FINDINGS

               Background                                     3

               Coordination of Select Agent Activities        3

               Establishment of BSL-3 Laboratories            5


               RECOMMENDATIONS                                6


               MANAGEMENT COMMENTS                            6


               INSPECTOR COMMENTS                             6


               APPENDICES

               A. Current Status of BSL-3 Laboratories        7

               B. Scope and Methodology                       8

               C. Prior Biological Research Related Reports   9

               D. Management Comments                         10
Overview

INTRODUCTION    The emerging threat to homeland security posed by the possible
AND OBJECTIVE   use of biological weapons of mass destruction has led to an
                increase in research and development activities involving
                biological select agents throughout the Federal Government,
                including the Department of Energy (DOE) laboratory system.
                The Department of Homeland Security (DHS) has provided
                millions of dollars to DOE for research and development,
                including work involving biological select agents. There was a
                significant increase in this funding between 2004 and 2005.
                Biological select agents are viruses, bacteria, rickettsia, fungi, and
                toxins whose possession, transfer, and use are controlled due to
                their capability to cause substantial harm to human health.

                The Office of Inspector General (OIG) has conducted several
                reviews involving biological research related topics (see
                Appendix C). In 2001, the OIG issued a report entitled “Inspection
                of Department of Energy Activities Involving Biological Select
                Agents,” DOE/IG-0492. In that report, the OIG concluded that
                there was insufficient organization, coordination, and direction in
                DOE’s biological select agent activities. In response, the
                Department established a Biosurety Working Group to, among
                other things, review mechanisms to improve oversight,
                coordination, and consistency within DOE, including the National
                Nuclear Security Administration (NNSA), and to improve
                communication and coordination with other agencies.

                The objective of this inspection was to determine if biological
                select agent research and development activities are adequately
                coordinated by the Department.




Page 1                              Coordination of Biological Select Agent
                                    Activities at Department of Energy Facilities
OBSERVATIONS AND   We concluded that the Department has not established an orderly,
CONCLUSIONS        coordinating mechanism for its biological select agent research and
                   development activities. Specifically, we found that:

                   •   The Biosurety Working Group, which was created by
                       management to address coordination issues identified in our
                       2001 report, was disbanded. Further, no entity was
                       subsequently assigned responsibility to coordinate biological
                       select agent activities within the Department; and,

                   •   DOE has not developed and executed a coordinated plan for
                       the development, construction, and operation of biosafety
                       level-3 (BSL-3) laboratories. Consequently, there is no
                       assurance that projects are being directed to the laboratory best
                       suited to meet requirements; that resources are being
                       effectively utilized; that security implications are being
                       addressed; and, that capabilities are not being inappropriately
                       duplicated.

                   We believe that the establishment of a central entity to coordinate
                   biological select agent activities within the Department, as well as
                   with other Federal agencies, is critical. Homeland security concerns
                   have led to an increase in work involving biological select agents
                   being performed for other agencies at DOE laboratories. Also,
                   work with biological select agents is involving more lethal agents.
                   These realities have significant safety, security, and cost
                   implications. In response to this inspection, DOE has taken initial
                   steps to create a central entity to coordinate biological select agent
                   activities, which is discussed on page 4 of this report. But, much
                   remains to be done to ensure the full implementation and continuing
                   success of the coordination effort.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND            Currently, research activities related to biological select agents are in
                      process or are planned at a number of Department laboratories. NNSA
                      and the Office of Science (Science), which have operational
                      cognizance over the DOE laboratory facilities conducting select agent
                      research and development activities, have certain responsibilities, to
                      include safety and security oversight. The Office of Environment,
                      Safety and Health (EH) is responsible for development of DOE-wide
                      policy regarding biological research and development.

                      DHS is funding projects involving biological select agents and
                      related projects at 11 DOE sites. Additionally, the Department of
                      Defense, the National Institutes of Health, and the Federal Bureau of
                      Investigation and other members of the Intelligence Community
                      fund biological select agent or related Work for Others projects at
                      various DOE sites. Although we were told by responsible Federal
                      and contractor officials that DOE is not funding any biological select
                      agent projects, a December 2004 DOE report to Congress listed
                      almost $5 million in Laboratory Directed Research and Development
                      (LDRD) funding for biological select agent related projects at five
                      DOE laboratories. LDRD is discretionary funding provided to the
                      national laboratories to pursue scientific and technical development.

                      Projects involving biological select agents typically progress from
                      less to more harmful forms of biological organisms, which sometimes
                      require the use of laboratories capable of a higher level of
                      containment for these organisms. The Centers for Disease Control
                      and Prevention (CDC) recommends the biosafety levels under which
                      dangerous organisms, identified and listed by CDC as select agents,
                      can be safely handled.

                      BSL-3 laboratories are for containment of indigenous or exotic agents
                      with a potential for respiratory transmission that can cause serious and
                      potentially lethal infection, such as aerosol production or culturing of
                      Bacillus anthracis (anthrax) and Yersinia pestis (the plague). Several
                      BSL-3 laboratories have been constructed, are in the planning stage, or
                      are under construction at DOE sites, although none are currently
                      operating as BSL-3 laboratories. Appendix A contains more detailed
                      information regarding the status of DOE’s BSL-3 laboratories.

COORDINATION OF       We found that the Biosurety Working Group, which was created by
SELECT AGENT          management to address coordination issues identified in our
ACTIVITIES            2001 report, was disbanded. Officials from NNSA, Science, and




Page 3                                                                Details of Findings
             EH advised us that the Biosurety Working Group was disbanded
             during 2002 and that no entity was assigned the responsibilities
             and activities previously assigned or undertaken by the Group.
             The lack of centralized coordination has led to the absence of both
             corporate data and a corporate strategy for decision-making
             regarding the Department’s biological select agent mission and
             activities. As demonstrated during our inspection, determining the
             scope and status of DOE’s select agent activities required our
             contacting numerous headquarters and field site officials. Further,
             we found no indication that there was communication between
             these officials regarding their select agent activities; thus, decision-
             making was site specific and did not include a DOE corporate
             perspective. For example, DOE currently lacks complex-wide pre-
             startup safety procedures for the initiation of work at BSL-3
             laboratories. Currently, each facility has to develop its own pre-
             startup safety criteria, which have varied from site to site for
             BSL-3 laboratories under construction.

Technology   During our review, we discussed with various DOE officials the
Committee    lack of coordination of biological select agent activities. Because
             of our concerns, during December 2004, NNSA and EH officials
             agreed to form a committee, called the Executive Committee for
             Emerging Technologies (Technology Committee), to coordinate
             select agent activities across the DOE complex. Further, EH and
             NNSA agreed to initially co-chair the Technology Committee. In
             February 2005, EH and NNSA initiated meetings that have been
             attended by representatives from EH, NNSA, Science, the Office
             of the General Counsel, and the Office of Safeguards and Safety
             Performance Assurance to discuss the possible formation of the
             Technology Committee. We were advised that the representatives
             discussed potential Technology Committee coordination issues,
             including biological select agents and other technology-related
             matters. We were further advised that suggestions regarding the
             role and authority of the Technology Committee ranged from
             obtaining formal endorsement by the Department, which would
             allow the Technology Committee to develop policy and make
             decisions regarding select agent and other technology matters, to it
             merely being a liaison committee to collect and disseminate
             information.

             We believe that the establishment of a central entity to provide
             complex-wide coordination of DOE’s select agent activities is
             critical because of increasing levels of biological select agent work
             at DOE’s laboratories, movement to work involving more lethal



Page 4                                                         Details of Findings
                select agents, potential safety and security concerns, and the need
                to maximize economies and efficiencies. Although DOE has taken
                the first steps in creating such an entity, much remains to be done
                to ensure the full implementation and continuing success of the
                effort.

ESTABLISHMENT   We found that DOE has not developed and executed a coordinated
OF BSL-3        plan for the development, construction, and operation of BSL-3
LABORATORIES    laboratories. Consequently, there is no assurance that projects are
                being directed to the laboratory best suited to meet requirements;
                that resources are being effectively utilized; that security
                implications are being addressed; and, that capabilities are not
                being inappropriately duplicated.

                We identified eight BSL-3 laboratories at DOE sites that have been
                constructed, are in the planning stage, or are under construction.
                The cost to construct a BSL-3 laboratory, including costs related to
                compliance with National Environmental Policy Act requirements,
                could amount to approximately $4 million, although a significant
                range is possible.

                Due to the lack of centralized coordination of DOE’s BSL-3
                laboratories, we were required to contact numerous headquarters and
                field site officials to determine the status of BSL-3 activities at
                Science and NNSA facilities. Interviews with Science and NNSA
                officials regarding the coordination of BSL-3 laboratories across the
                DOE complex confirmed that there was no central or DOE-wide
                coordination of BSL-3 activities at DOE sites and that decisions
                regarding BSL-3 activities were made by local site officials. We did
                not identify any DOE entity that made corporate decisions about the
                establishment of BSL-3 laboratories at DOE sites, e.g., the location
                and necessity of the BSL-3 laboratories.

                We were also told by officials that as the number and biosafety level
                of biological research laboratories increase, so does the risk of both
                insider and outsider attacks involving these facilities. Security
                management of biological select agents poses unique challenges
                because biological select agents can replicate, making theft of minute
                quantities significant.

                We believe DOE should develop a corporate strategy to determine
                the number and location of BSL-3 facilities, coordinate future
                construction funding, ensure that work is not duplicated, and
                address associated safety and security issues.



Page 5                                                         Details of Findings
RECOMMENDATIONS   We recommend that the Administrator, NNSA, and the Director,
                  Office of Science, work together to ensure that:

                  1. An enduring entity is created and empowered to coordinate
                     biological select agent activities and issues across the DOE
                     complex; and,

                  2. The Department develops a corporate strategy for the
                     establishment of biosafety level laboratories, to include
                     determining the number and location of BSL-3 facilities,
                     coordinating future construction funding, ensuring that work is not
                     duplicated, and addressing associated safety and security issues.

MANAGEMENT        Management concurred with our conclusions and
COMMENTS          recommendations. We have included management’s comments in
                  their entirety at Appendix D.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          report.




Page 6                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

CURRENT STATUS   The following is the current status of BSL-3 facilities across the
OF BSL-3         DOE complex:
LABORATORIES
                 •   Lawrence Livermore National Laboratory is in the process of
                     replacing some of the equipment in its BSL-3 laboratory due to
                     incompatibility between the equipment and the organisms
                     planned to be used in the research projects. After the work is
                     completed, it will begin the pre-startup safety review process
                     during the summer or fall of 2005;

                 •   Los Alamos National Laboratory has constructed a facility
                     containing two BSL-3 laboratories. However, the facility
                     cannot become operational until an Environmental Impact
                     Statement is completed, which is targeted for completion
                     during the fall of 2006;

                 •   Oak Ridge National Laboratory built a BSL-3 laboratory, but
                     did not conduct an Environmental Assessment to allow it to
                     operate at that level. Currently, the facility operates as a
                     BSL-2 laboratory;

                 •   Pacific Northwest National Laboratory’s plan to convert an
                     existing BSL-2 to a BSL-3 laboratory is currently on hold
                     pending the development of a business plan to construct new
                     buildings; and

                 •   DOE leased land at Argonne National Laboratory to the
                     University of Chicago (Chicago) for construction of a $30
                     million Regional Biocontainment Laboratory, pending the
                     completion of an Environmental Assessment. The Regional
                     Biocontainment Laboratory will contain two BSL-3
                     laboratories for pathogens and one BSL-3 laboratory for
                     animals. The National Institutes of Health is providing $17
                     million, and Chicago is providing $13 million. We were told
                     that DOE has no management responsibilities over the facility
                     because it will be owned by Chicago. However, according to
                     the lease agreement, DOE may prescribe safety and security
                     regulations and inspect for compliance with applicable
                     environmental permits, licenses, and regulations.




Page 7                                      Current Status of BSL-3 Laboratories
Appendix B

SCOPE AND     Our review included visits to Los Alamos National Laboratory,
METHODOLOGY   Lawrence Livermore National Laboratory, and Oak Ridge National
              Laboratory. We conducted interviews with NNSA, Science, and
              EH officials at DOE headquarters. We also reviewed related site,
              DOE-wide, and Government-wide criteria.

              As part of our review, we evaluated DOE’s implementation of the
              “Government Performance and Results Act of 1993” in the context
              of the activities included in our review. We did not identify any
              performance measure issues regarding the coordination of
              biological select agent activities at DOE facilities.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                               Scope and Methodology
Appendix C

PRIOR BIOLOGICAL   The following are reports related to OIG reviews of biological
RESEARCH RELATED   research activities:
REPORTS
                   •   “Inspection of Selected Issues of the Chem-Bio Facility at the
                       Oak Ridge National Laboratory,” INS-O-00-01, November
                       1999;

                   •   “Inspection of Department of Energy Activities Involving
                       Biological Select Agents,” DOE/IG-0492, February 2001;

                   •   “Homeland Security: Interagency Summary Report on
                       Security Controls Over Biological Agents (U),” D-2003-126
                       (Department of Defense OIG report number), August 27, 2003
                       (the report is classified Secret); and

                   •   “Concerns Regarding a Non-Viable (Dead) ‘Anthrax Spore’
                       Research Project at the Oak Ridge National Laboratory,”
                       DOE/IG-0681, March 2005.




Page 9                                Prior Biological Research Related Reports
Appendix D




Page 10      Management Comments
Page 11   Management Comments
Page 12   Management Comments
                                                             IG Report No. DOE/IG-0695

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers’
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
